Highlights
Table of Contents




                                                          S e r v i c e
                    Business                     Customer
                    Service
                    Network
Findings
Recommendations




                    Audit Report
                    Report Number MS-AR-14-005


                    July 9, 2014
Appendices




                                                                          Print
Highlights
Table of Contents




                    Highlights                   Background                                                             to fostering customer satisfaction, improving customer retention,
                                                                                                                        and increasing revenue.
                                                 The U.S. Postal Service’s Business Service Network (BSN)
                                                 of 300 employees supports nearly 23,000 large customers for            Our objectives were to evaluate the effectiveness of the BSN
                                                 service issues, information, and other requests. The                   and identify opportunities for improvement.
                                                 Postal Service reported $37.6 billion in revenue from this
Findings




                                                 customer segment in fiscal year (FY) 2013, and the BSN
                                                                                                                        What the OIG Found
                                                 provides a single point of contact to serve these customers. The
                                                 BSN staff resolved 156,703 of about 170,000 service requests           There are significant opportunities to increase the effectiveness
                                                 submitted in FY 2013.                                                  of the BSN. First, the average resolution time for customer
                                                                                                                        service requests was 5 days – 2 days longer than BSN
                                                 BSN staff is part of the Consumer and Industry Affairs group           guidance requires – because BSN staff depends on input from
                                                 and frequently coordinates with other functional areas to handle       operational staff to resolve issues. Second, we found up to
                                                 service requests. The ability to provide quality service is crucial    53 percent of accounts that require outreach were not contacted
Recommendations




                                                          Opportunity Knocks!                 Reducing the             Conducting         Enhancing          Expanding the
                                                                                              time it takes             customer         the customer         performance
                                                          The effectiveness of the              to resolve                                experience           evaluation
                                                                                                                       outreach…
                                                          Business Service Network              customer                                   survey…           methodology
                                                          can be increased and                 requests...                                                      for BSN
                                                                                                                                                                 staff…
                                                          could generate up to
                                                          $382 million in additional
                                                          revenue in FY 2014!
Appendices




                                                          Roll over the doors to
                                                          see what the OIG found.

                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                               Print                                   1
Highlights
Table of Contents




                                                 proactively because staff focuses on resolving requests               What the OIG Recommended
                                                 instead. Third, the BSN customer experience survey excludes
                                                                                                                       We recommend the vice president, Consumer and Industry
                                                 a large percentage of BSN customers, because it focuses
                                                                                                                       Affairs, develop a strategy to increase BSN effectiveness by
                                                 on larger accounts, and only covers recently closed service
                                                                                                                       reducing the time it takes to resolve requests; conducting
                                                 requests. Finally, the BSN employee performance evaluation
                                                                                                                       customer outreach; enhancing the customer experience survey;
                                                 is based on the results of the customer experience survey at
Findings




                                                                                                                       and expanding the performance evaluation methodology for
                                                 either the area or the district level and can be the result of only
                                                                                                                       BSN staff.
                                                 a few responses because the survey does not address metrics
                                                 for individuals.

                                                 The BSN is a valuable element in the Postal Service’s strategy
                                                 to grow revenue and retain customers and its structure and
                                                 processes are consistent with leading practices. However, we
Recommendations




                                                 estimate that increasing customer outreach to all BSN accounts
                                                 could generate $382 million in additional revenue for FY 2014.
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                             Print                                2
Highlights
                    Transmittal Letter



                                                 July 9, 2014
Table of Contents




                                                 MEMORANDUM FOR:	 JAMES A. NEMEC
                                                 				VICE PRESIDENT, CONSUMER AND
                                                 				             INDUSTRY AFFAIRS

                                                                                E-Signed by Janet Sorensen
                                                                           VERIFY authenticity with eSign Desktop

                                                 				

                                                 FROM: 			 Janet M. Sorensen
                                                 				Deputy Assistant Inspector General
                                                 				       for Revenue and Resources
Findings




                                                 SUBJECT: 			               Audit Report – Business Service Network
                                                 				                       (Report Number MS-AR-14-005)

                                                 This report presents the results of our audit of the Business Service Network (Project
                                                 Number 14RG003MS000).

                                                 We appreciate the cooperation and courtesies provided by your staff. If you have any
Recommendations




                                                 questions or need additional information, please contact Joe Wolski, director, Sales and
                                                 Marketing, or me at 703-248-2100.

                                                 Attachment

                                                 cc: Corporate Audit and Response Management
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                     Print                  3
Highlights
                    Table of Contents
                                                 Cover
                                                 Highlights.......................................................................................................1
                                                  Background.................................................................................................1
                                                  What the OIG Found...................................................................................1
                                                  What the OIG Recommended.....................................................................2
Table of Contents




                                                 Transmittal Letter...........................................................................................3
                                                 Findings.........................................................................................................5
                                                  Introduction.................................................................................................5
                                                  Conclusion..................................................................................................6
                                                  Customer Service Request Resolution Time..............................................7
                                                  Customer Outreach.....................................................................................8
                                                  Business Service Network Customer Experience Survey..........................9
                                                  Business Service Network Employee
                                                  Performance Evaluation Methodology......................................................10
Findings




                                                 Recommendations...................................................................................... 11
                                                  Management’s Comments........................................................................ 11
                                                  Evaluation of Management’s Comments..................................................12
                                                 Appendices..................................................................................................13
                                                  Appendix A: Additional Information...........................................................14
                                                    Background ...........................................................................................14
Recommendations




                                                    Objectives, Scope, and Methodology.....................................................16
                                                    Prior Audit Coverage..............................................................................17
                                                  Appendix B: Monetary Impact...................................................................18
                                                  Appendix C: Office of Inspector General Business
                                                  Service Network Survey............................................................................20
                                                  Appendix D: Management’s Comments...................................................22
                                                 Contact Information.....................................................................................25
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                        Print                         4
Highlights
                    Findings                             Introduction
                                                         This report presents the results of our self-initiated audit of the Business Service Network (BSN) (Project Number
                                                         14RG003MS000). Our objectives were to evaluate the effectiveness of the BSN and identify opportunities for improvement. See
                                                         Appendix A for additional information about this audit.

                                                         The U.S. Postal Service’s BSN supports nearly 23,000 large mailing customers for service issues, information, and other requests.
                    The BSN provides a single point      These customers generated revenue of $37.6 billion for the Postal Service in fiscal year (FY) 2013. Postal Service guidelines state
                                                         that a customer account is assigned to the BSN if it has projected annual volume of 680,000 pieces or projected annual revenue of
Table of Contents




                    of contact to serve its customers,   $120,000 and three additional qualifying elements, such as having a negotiated service agreement, being a mail service provider,
                                                         and using Commercial Plus pricing.1
                        including investigating and
                     resolving their service requests    The BSN provides a single point of contact to serve its customers, including investigating and resolving their service requests2 and
                                                         initiating contact with them.3 Customer requests most often pertain to service, single package lookup, and delivery concerns. BSN
                     and initiating contact with them.   employees, part of the Postal Service’s Consumer and Industry Affairs group, frequently coordinate with other functional areas to
                                                         resolve customer requests. For example, BSN representatives coordinate with retail staff regarding certain business reply mail
                                                         requests and with delivery staff regarding certain mail delivery requests. The BSN staff resolved 156,703 service requests and
                                                         initiated communication with 11,844 BSN customers in FY 2013.

                                                         The Postal Service has segmented BSN customers into four groups based on mail volume, revenue, and customer service needs.
                                                         Strategic and area strategic accounts include large mailers with complex service issues; tactical accounts include large mailers
Findings




                                                         with less complex mailing issues; and technical accounts include more localized customers with less volume and fewer complex
                                                         service issues. Table 1 provides a summary of key BSN information for these accounts. The strategic, area strategic, and tactical
                                                         accounts represented about 95 percent of total BSN revenue in FY 2013. Additional information for these account groups is in
                                                         Table 3 of Appendix A.
Recommendations
Appendices




                                                         1	   The following is a complete list of the customers that could be considered for a BSN account: mail service provider; permit user; meter/personal computer postage user;
                                                              Express Mail Corporate Account user; Official Mail Accounting System user; international user; centralized account processing system user; detached mail unit user; Mail
                                                              Transport Equipment Support System user; returns customer; Priority Mail cubic pricing customer; Commercial Plus pricing customer; customers with negotiated service
                                                              agreements; and Global Expedited Package Service – Contracts Price Tier 3-8 customer.
                                                         2	   BSN staff record and track all requests for assistance from BSN customers as a service request in the CustomerFirst! application.
                                                         3	   Proactive customer outreach involves a scheduled communication between BSN staff and the customer about the account, Postal Service news, or other information.
                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                                                Print                                                5
Highlights                                       Table 1: BSN Summary, FY 2013

                                                      The Business Service Network and Summary of Performance for FY 2013
                                                                                                                                                                                                         Accounts
                                                      Roll over the Account Group                          Account                Number of     Revenue       Number of                                  With Proactive
                                                      category to learn more                               Group                  BSN Accounts (in millions) Service Requests                            Customer Outreach
                                                      about their function and                             Strategic                        370      $14,247             31,266                                          185
                                                      performance in FY 2013.                              Area Strategic                   427        $6,079            25,190                                          201
Table of Contents




                                                                                                           Tactical                      11,989      $15,260             91,623                                       10,135
                                                                                                           Technical                     10,220        $2,000             8,624                                        1,323
                                                                                                           Total                         23,006      $37,586            156,703                                       11,844


                                                 Source: Postal Service data for numerous BSN accounts and revenue amounts obtained from the Corporate Business Customer Information System (CBCIS); the number of service requests and
                                                 accounts with proactive customer outreach were obtained from the CustomerFirst! application.


                                                 The BSN’s ability to provide quality service to its customers is crucial to fostering customer satisfaction and retention and growing
                                                 revenue. Enhancing the BSN is a component of Delivering Results, Innovation, Value, and Efficiency (DRIVE) Initiative 25,4
                                                 Improve Customer Experience.

                                                 Conclusion
Findings




                                                 There are significant opportunities to increase the effectiveness of the BSN. First, the average time for resolving customer service
                                                 requests was 5 days, which is 2 days longer than BSN guidance requires. Second, we found no customer outreach on up to
                                                 53 percent of some account types, although BSN guidance requires outreach to all accounts in these categories. Third, the BSN
                                                 customer experience survey excludes a large percentage of BSN customers and focuses on recently closed service requests.
                                                 Finally, the BSN employee performance evaluation is based on the results of the customer experience survey at either the area or
                                                 the district level and can be the result of only a few survey responses.
Recommendations




                                                 The BSN is a valuable element in the Postal Service’s strategy to grow revenue and retain customers. Customers we surveyed
                                                 valued the single point of contact the BSN offers, as BSN staff members understand their business needs. Further, the BSN’s
                                                 structure and process are consistent with leading practices,5 which suggest that personalizing customer service and allowing
                                                 customers to choose the communication channel6 improve customer satisfaction, thus promoting customer loyalty. However, we
                                                 estimate that increasing customer outreach to all BSN accounts could generate $382 million in additional revenue for FY 2014.
                                                 See Appendix B for additional information on this calculation.
Appendices




                                                 4	   DRIVE is a management process the Postal Service uses to improve business strategy, development, and execution. The initiatives include cost cutting, revenue
                                                      generation, and capability enhancement.
                                                 5	   Leading practice refers to a process or method that has been adopted by a large number of organizations. We collected leading practices via research on leading
                                                      organizations, including customerexperienceinsight.com, Incontact.com, Voxeo.com, Kaiser Associates, and Special Access Program Community Network.
                                                 6	   BSN customers mostly initiate inquiries regarding their customer accounts by telephone, an online tool called eService, or email.
                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                                               Print                                                  6
Highlights                                             Customer Service Request Resolution Time
                                                       Opportunities exist to improve BSN effectiveness by reducing the time it takes to resolve customer service requests. We found
                                                       it takes an average7 of 5 days to resolve a customer service request compared to the 1-3 days BSN guidance suggests. Delays
                                                       occurred in resolving customer service requests because BSN staff did not have sufficient access to relevant data or information
                                                       for timely resolution. BSN staff members often rely on operational staff members to help resolve customer service issues.
                                                       Operational staff members have other priorities, are not accountable for responding to BSN inquiries, and do not always respond
                      The average time for resolving   in a timely manner.
Table of Contents




                         customer service requests     We originally raised the issue of BSN timeliness in a 2012 report,8 stating that prompt and responsive feedback to customers
                                                       is critical to preserving revenue for the Postal Service. The Postal Service implemented corrective action by providing frequent
                        was 5 days, which is 2 days
                                                       training webinars and at least one district released a memorandum addressing the importance of responding to BSN staff requests
                         longer than BSN guidance      within 24 hours. As a result, the Postal Service has made progress in this area. According to the Postal Service’s BSN customer
                                                       experience survey, 85 percent of respondents stated that the Postal Service closed their customer service requests within
                    requires. There was no customer    2 days. In addition, we conducted a BSN satisfaction survey and responses9 received from higher-revenue BSN account
                                                       customers suggest the Postal Service is making progress in improving the quality of service for these customers.
                        outreach to up to 53 percent
                     of some account types, and the    The Postal Service should continue to develop strategies to decrease the time it takes to resolve customer service requests.
                                                       These could include providing BSN staff with access to relevant data or information from the Intelligent Mail barcode (IMb),
                    BSN customer experience survey     PostalOne!, Transportation Information Management Evaluation System (TIMES), and Service Performance Diagnostics (SPD).10
                                                       Additional access to relevant data or information for at least some BSN staff members would allow them to handle service
                        excludes a large percentage
Findings




                                                       requests more independently and efficiently and decrease their reliance on other staff.
                     of BSN customers. Additionally,
                     the BSN employee performance
                     evaluation can be based on the
                        results of only a few survey
Recommendations




                                     responses.




                                                       7	  We obtained information on the average number of days to resolve a customer service request from the Postal Service’s CustomerFirst! application. This average was as
                                                           of August 30, 2013.
                                                       8	 U.S. Postal Service Office of Inspector General (OIG) report, Management Alert – Customer Service Feedback (Report number NO-MA-13-001, dated
                                                           December 17, 2012).
Appendices




                                                       9	 See Appendix C for more details about our survey methodology and results.
                                                       10	 The IMb system tracks mailpieces through the mailstream. The PostalOne! system provides detailed account information and tracks the business needs of business
                                                           mailers and mail acceptance employees. Uniform access to this system could prevent BSN reliance on business mail entry units. TIMES provides access to
                                                           transportation information such as arrival and departure of mailings. SPD provides detailed information on commercial mail activity and processing conditions. Other
                                                           systems where access would also be beneficial include the following: the Enterprise Data Warehouse system, which provides mailing and account activity research, the
                                                           Facility Access and Shipment Tracking system, which provides access to delivery appointment information, and the Web Box Activity and Tracking System, which
                                                           provides account activity associated with post office boxes and caller service activities.
                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                                           Print                                               7
Highlights                                       Customer Outreach
                                                 The Postal Service has an opportunity to improve the effectiveness of the BSN by increasing customer outreach – communication
                                                 initiated by BSN staff to discuss a customer’s account. Although national guidance11 suggests there should be at least one
                                                 customer outreach per quarter for the three largest types of accounts, we found no customer outreach recorded in FY 2013 for
                                                 many of these BSN accounts. Specifically, in FY 2013, BSN staff did not reach out to half of strategic accounts, 53 percent of area
                                                 strategic accounts, 15 percent of tactical accounts, and 87 percent of technical accounts (see Table 2).

                                                 Table 2: BSN Customer Outreach, FY 2013
Table of Contents




                                                    Business Service Network Customer Outreach, FY 2013
                                                                             Accounts With                                 Percentage of               Expanding and
                                                     Account                 No Customer             Total Active          Customers Not               promoting customer
                                                     Group                     Outreach               Accounts               Contacted
                                                     Strategic                         185                     370                    50%
                                                                                                                                                       outreach to all
                                                     Area Strategic                    226                     427                    53%              BSN accounts could
                                                     Tactical                        1,854                  11,989                    15%              generate $382 million
                                                     Technical                       8,897                 10,220                     87%              in additional revenue
                                                     Total                          11,162                 23,006                     49%              for FY 2014.*
                                                                                                                                                       *See Appendix B
Findings




                                                 Source: Accounts with no customer outreach performed obtained from CustomerFirst! application and total BSN active accounts obtained from CBCIS.


                                                 Based on our analysis and conversations with BSN staff, we found the following factors contributed to these results:

                                                 ■■ Because of workload challenges, BSN staff focuses on resolving customer service requests. While a phone call initiated by the
                                                    BSN may only take a few minutes, effective outreach requires familiarity with the account, which takes additional time.

                                                 ■■ Some customer outreach is not documented in CustomerFirst! For example, electronic outreaches to customers as a group are
Recommendations




                                                    only documented in customers’ accounts when those contacts are added manually.

                                                 ■■ Nationwide BSN guidance does not promote reaching out to customers with technical BSN accounts.

                                                 Regularly initiated outreach with all BSN accounts could have multiple benefits for the Postal Service. First, leading practices
                                                 suggest initiating contact with customers is an effective way to obtain sales leads. For example, in FY 2013, the BSN initiated
                                                 contact with 11,844 accounts; these accounts generated $26.2 billion more in revenue than accounts the BSN did not contact
                                                 proactively.12 Second, additional outreach would increase opportunities to promote Postal Service products and services, and
                                                 potentially decrease the need for customers to initiate service requests.

                                                 11	 National guidelines suggest conducting customer outreach quarterly, monthly, or weekly, depending on mail volume, the number and priority of customer service requests,
                                                     customer expectations, and current events affecting the customer. Area or district managers have additional discretion in determining the frequency of customer outreach.
Appendices




                                                 12	 To account for large revenue customers, we identified the median revenue of the accounts receiving proactive contact that had positive revenue amounts, assumed a 50
                                                     percent chance that converted accounts would produce revenue below the median, and assumed their average revenue would be roughly equivalent to the average of
                                                     the below median revenue. This median was used as a benchmark to identify the relationship between proactive contacts and additional revenue. Additional information
                                                     contained on this calculation is included in Appendix B.



                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                                                  Print                                     8
Highlights                                       We estimate the Postal Service missed revenue opportunities of about $382 million in FY 2013 because it did not effectively reach
                                                 out to all BSN accounts. Furthermore, initiating contact with all BSN accounts could generate $382 million in additional revenue for
                                                 FY 2014. See Appendix B for monetary impact and detailed calculations.

                                                 Business Service Network Customer Experience Survey
                                                 The Postal Service has an opportunity to enhance the BSN customer experience survey, the mechanism for collecting information
                                                 from customers regarding their level of satisfaction, as the current structure may not reflect customers’ overall views of the BSN.
                                                 Specifically:
Table of Contents




                                                 ■■ The current survey methodology excludes 44 percent of BSN accounts, as technical accounts are not included in the survey
                                                    sample. Leading practices suggest all major customers should be encouraged to provide feedback on their recent customer
                                                    experiences. The Postal Service could gain insight from this group of customers if it included them in the survey.

                                                 ■■ The current survey only collects customer information related to a specific service request. While this information is valuable in
                                                    assessing the most recent interaction between the customer and the BSN, the Postal Service is missing an opportunity to gain
                                                    useful insight into the customer’s overall view of the BSN. Additionally, the Postal Service does not survey customers without
                                                    customer service requests. Leading practices advocate providing all large customers an opportunity to comment on their
                                                    complete customer experiences.

                                                 The Postal Service recently updated the BSN customer experience survey, reducing the number of questions and modifying
Findings




                                                 the recipient sampling methodology so more customers have the opportunity to provide feedback. Recent data from this survey
                                                 showed 96 percent of the respondents are satisfied with BSN services. While these are positive steps, the Postal Service should
                                                 consider further enhancing the survey by including all BSN customers. It should also collect information on customers’ overall
                                                 views of the BSN process. This information would help the Postal Service gain a broader perspective on BSN performance and
                                                 understand BSN technical account customers’ viewpoints.
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                             Print                                   9
Highlights                                       Business Service Network Employee Performance Evaluation Methodology
                                                 The Postal Service could further enhance the effectiveness of the BSN by modifying the variables used to evaluate its staff
                                                 performance. The variables used in FYs 2013 and 2014 might not accurately reflect individual BSN staff performance. For
                                                 example:

                                                 ■■ The FY 2013 customer experience surveys (which were based on customer experience survey results) were not a complete
                                                    measure of BSN performance as they excluded technical accounts and only focused on the most recent service requests.
Table of Contents




                                                 ■■ FY 2013 numerical ratings at the area or district level could be the result of only a few survey responses. For example,
                                                    the numerical rating for one district was based on three BSN customer experience responses and another district’s rating
                                                    was based on 174 BSN customer experience responses. Furthermore, the survey did not accurately measure individual
                                                    performance.

                                                 In FY 2014, the Postal Service expanded the basis of the performance evaluations and included the percentage of service
                                                 requests submitted through an online tool (eService) and the quantity of sales leads. Nearly half of BSN survey respondents
                                                 (49 percent), however, were not familiar with or could not provide feedback on eService.

                                                 Leading practices suggest using other metrics to evaluate BSN performance. For example, timeliness in resolving service
                                                 requests, the quantity of completed customer outreach, and revenue growth may be more useful in improving BSN effectiveness.
                                                 Modifying the performance evaluation methodology by factoring in variables to evaluate the performance of individual BSN staff
Findings




                                                 members would further enhance the value of this evaluation system and the overall effectiveness of the BSN.
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                           Print                               10
Highlights
                    Recommendations                     We recommend the vice president, Consumer and Industry Affairs, develop a strategy to improve Business Service Network
                                                        effectiveness that includes:

                                                        1.	 Improving the time it takes to resolve customer service requests by providing Business Service Network staff with access to
                                                            resources such as Intelligent Mail barcode data, PostalOne!, Transportation Information Management Evaluation System, and
                                                            Service Performance Diagnostics.

                       We recommend management          2.	 Increasing customer outreach to include all Business Service Network accounts.
Table of Contents




                      develop a strategy to increase    3.	 Enhancing the Business Service Network (BSN) customer experience survey process by including all BSN customers in its
                      BSN effectiveness by reducing         survey methodology and collecting information on BSN customers’ overall views of the BSN process.

                         the time it takes to resolve   4.	 Expanding the performance evaluation methodology for Business Service Network staff by factoring in variables that would
                                                            allow evaluation of the performance of individual staff members.
                     requests; conducting customer
                           outreach; enhancing the      Management’s Comments
                                                        Management agreed with the findings and recommendations 1 and 4, and partially agreed with recommendations 2 and 3.
                       customer experience survey;
                     and expanding the performance      Regarding recommendation 1, management will create and distribute a tool listing various databases, systems, and reporting
                                                        tools to aid BSN staff in resolving customer service issues. They have begun training employees on the use of these tools and
                           evaluation methodology
Findings




                                                        will schedule additional sessions as needed. Management began implementing these actions on October 1, 2013, and related
                                                        improvements are ongoing.
                                   for BSN staff.
                                                        Regarding recommendation 2, management explained the BSN has expanded customer outreach to all BSN account categories
                                                        through email notifications as part of the Postal Service’s Network Rationalization efforts. Furthermore, management is making
                                                        additional contacts with customers at risk of churn/defection through a joint customer retention program with Sales. They
                                                        implemented this program in 17 districts with plans to expand the retention contacts in the remaining 50 districts by the end of
                                                        FY 2014. The targeted implementation date for these actions is September 30, 2014.
Recommendations




                                                        Management disagreed with the calculated monetary impact for recommendation 2, stating the main mission of the BSN is to
                                                        retain revenue and identify leads and opportunities, not to generate revenue. Furthermore, management stated the BSN is not
                                                        currently staffed to properly make the contacts described in the report and estimated that an additional 462 full-time equivalents
                                                        (FTEs) would be needed to support the level of contact we recommended.

                                                        Regarding recommendation 3, management partially agreed, stating the BSN recently revamped its survey process to make it
                                                        easier for customers and increase response rates. Furthermore, management is committed to revising the survey criteria based
                                                        on their new customer segmentation plan and any area/district account with a BSN contact will be eligible to receive a survey.
                                                        Management also stated that following the recommendation would require surveying customers whether they have interacted with
                                                        BSN or not. Management will consider conducting a perception-based survey twice a year to all BSN customers. Management
Appendices




                                                        began implementing these actions on November 20, 2013, and related improvements are ongoing.

                                                        Regarding recommendation 4, management agreed with our recommendation but stated the current Performance Evaluation
                                                        System process does not allow individual evaluation indicators for area and field personnel. Management stated, however, that

                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                   Print                                     11
Highlights                                       individual performance indicators would be useful in assessing BSN effectiveness and coaching BSN staff and they will create
                                                 and implement a performance dashboard BSN Operations can use for evaluations at the unit and individual levels. The targeted
                                                 implementation date for these actions is March 31, 2015. See Appendix D for management’s comments, in their entirety.

                                                 Evaluation of Management’s Comments
                                                 The OIG considers management’s comments responsive to the recommendations in the report and corrective actions should
                                                 resolve the issues we identified.
Table of Contents




                                                 Regarding management’s disagreement with the monetary impact estimate, we continue to believe the BSN has a role in
                                                 generating revenue and that increasing customer outreach will help generate additional revenue. We think our estimate is
                                                 reasonable and the best estimation of additional revenue if management implemented the recommendations.

                                                 Regarding management’s comments that 462 additional staff would be needed to implement recommendation 2, current guidance
                                                 already suggests there should be at least one customer outreach per quarter for the three largest types of accounts. As such,
                                                 current resources should support those contacts, particularly if BSN representatives become more efficient at handling customer
                                                 issues from implementing improvements for recommendation 1. For the technical accounts—those BSN accounts with no current
                                                 guidance for customer outreach—we believe that providing resources to contact these customers could lead to additional revenue
                                                 that would offset these costs. Those resources could come from allowing more time from current BSN representatives to contact
                                                 these customers or by budgeting for additional FTEs.
Findings




                                                 Regarding management’s comments on recommendation 4 related to the Performance Evaluation System (PES) not allowing for
                                                 individual evaluation indicators, the actions proposed by management to implement a performance dashboard and to examine
                                                 reintroducing individual indicators for BSN staff meet the intent of our recommendation.

                                                 The OIG considers all recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                 OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                 Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                          Print                                   12
Highlights
                    Appendices
                                                         Appendix A: Additional Information...........................................................14
                                                          Background ...........................................................................................14
                                                          Objectives, Scope, and Methodology.....................................................16
                    Click on the appendix title to the    Prior Audit Coverage..............................................................................17
                                                         Appendix B: Monetary Impact...................................................................18
Table of Contents




                      right to navigate to the section
                                                         Appendix C: Office of Inspector General Business
                                       content.          Service Network Survey............................................................................20
                                                         Appendix D: Management’s Comments...................................................22
Findings
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                         Print                       13
Highlights          Appendix A:                  Background
                    Additional Information       The Postal Service’s ability to provide quality customer service is crucial to fostering customer satisfaction, improving customer
                                                 retention, and increasing revenue. The Postal Service’s BSN receives numerous customer service requests from large customers
                                                 each year and is responsible for reaching out to these customers. The BSN managed 23,006 accounts, representing an estimated
                                                 $37.6 billion in annual revenue, in FY 2013.

                                                 The Postal Service segments its BSN accounts into four customer account groups: strategic, area strategic, tactical, and
                                                 technical. This segmentation is based, predominantly, on the customer’s mail volume, revenue, and service needs (see Table 3).
Table of Contents




                                                 All customers receive the same services from the BSN staff, with the exception of technical accounts. Nationwide BSN guidance
                                                 does not promote customer outreach for technical accounts; however, BSN staff does initiate contact with some of these accounts.
                                                 Furthermore, technical BSN customers are excluded from the BSN customer experience survey.

                                                 Table 3: BSN Account Group Classification

                                                 Strategic                          Area Strategic           Tactical                       Technical
                                                                                                            Significant mail volume or
                                                 National mailings                  National mailings                                       Less volume than tactical
                                                                                                            revenue
                                                 Mailings cross area                Mailings geographically Mailings geographically         Mailings geographically
                                                 boundaries                         centralized             centralized                     centralized
                                                                                                            Service issues relate to mail   Service issues are minimal
                                                 Complex service issues             Complex service issues acceptance or equipment          or customers have infrequent
Findings




                                                                                                            needs                           needs
                                                 Multiple mailing sites             Multiple mailing sites  District level activity         Local level activity
                                                 Source: BSN Account Management Processes, FY 2013.


                                                 BSN customers generally initiate inquiries by telephone, an online tool called eService, or email. These inquiries can involve many
                                                 issues but most often pertain to customer service, single package lookup, and delivery concerns. Once the inquiry is made, a
                                                 BSN staff member enters it into the CustomerFirst! application and it becomes a customer service request. If a BSN staff member
Recommendations




                                                 cannot resolve the request independently, he or she will collaborate with relevant Postal Service experts. In FY 2013, BSN staff
                                                 resolved 156,703 customer service requests.

                                                 The BSN Account Management Process Guide, FY 2013, states the BSN shall update the customer at least every 24 hours until
                                                 the request is resolved. These same guidelines state that, depending on the type of issue, the service request should be resolved
                                                 within 24-72 hours.
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                    Print                         14
Highlights                                       The Postal Service conducts a BSN customer experience survey to measure the BSN customer’s satisfaction regarding customer
                                                 service requests. The BSN customer experience survey is limited to customers who:

                                                 ■■ Had service requests recently resolved in the CustomerFirst! application.

                                                 ■■ Are classified as strategic, area strategic, or tactical accounts.

                                                 ■■ Did not receive recent customer experience survey requests.
Table of Contents




                                                 ■■ Did not participate in recent customer experience surveys.

                                                 ■■ Did not request exclusion from the customer experience survey.

                                                 The results of the BSN customer experience survey can trigger an alert if the customer requests a follow-up contact or ranks
                                                 the BSN poorly. The alert is sent to the area manager of the BSN staff member who serviced the request, along with the
                                                 BSN headquarters team. Reponses to each area- or district-specific question are summarized and given a numerical value.
                                                 Management use this value as a unit performance measurement to evaluate BSN performance.

                                                 In addition to resolving customer service requests, BSN staff perform proactive and special customer outreach on certain BSN
                                                 accounts. Proactive customer outreach is a regularly scheduled communication the BSN initiates to discuss the customer’s
                                                 account and other related topics. The area or district manager determines the frequency of this outreach, but guidelines suggest
Findings




                                                 quarterly, monthly, or weekly contact. Special customer outreach occurs when a unique event takes place, such as a natural
                                                 disaster, product or service update, or security threat. In these circumstances, the BSN staff determines which customers are
                                                 impacted and informs them of the occurrence.

                                                 According to industry standards, anticipating customer needs and preferences and addressing them proactively can enhance the
                                                 customer experience and promote customer loyalty, thereby increasing revenue. Furthermore, customers stated they value on-
                                                 site customer outreach. Onsite visits increase BSN staff members’ understanding of customer needs and can help them resolve
Recommendations




                                                 service requests faster. The lack of outreach to BSN accounts can result in missed opportunities and potential revenue at risk.
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                           Print                                    15
Highlights                                       Objectives, Scope, and Methodology
                                                 Our objectives were to evaluate the effectiveness of the BSN and identify opportunities for improvement.

                                                 To accomplish our objectives, we:

                                                 ■■ Reviewed BSN-related policies and procedures, including how the Postal Service evaluates performance and effectiveness,
                                                    and associated metrics, targets, and surveys.
Table of Contents




                                                 ■■ Obtained and analyzed data from the CustomerFirst! application to determine the number and type of BSN accounts and staff,
                                                    the quantity, type, and location of service requests, and how service requests are recorded, tracked, and resolved.

                                                 ■■ Interviewed BSN managers, staff, and customers.

                                                 ■■ Obtained and analyzed FY 2013 BSN revenue generated from CBCIS.

                                                 ■■ Obtained customers viewpoints on the BSN by sending digital surveys and summarizing the results (see Appendix C).

                                                 ■■ Reviewed and assessed the accuracy, reliability, and sufficiency of the customer experience survey the Postal Service uses to
                                                    evaluate BSN performance.

                                                 ■■ Collected information on leading practices.
Findings




                                                 ■■ Estimated monetary impact.

                                                 We conducted this performance audit from October 2013 through July 2014, in accordance with generally accepted government
                                                 auditing standards and included such tests of internal controls, as we considered necessary under the circumstances. Those
                                                 standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                 our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for
Recommendations




                                                 our findings and conclusions based on our audit objectives. We discussed our observations and conclusions with management on
                                                 June 2, 2014, and included their comments where appropriate.

                                                 We assessed the reliability of the customer service request data downloaded from the CustomerFirst! application along with BSN
                                                 revenue amounts obtained from CBCIS by summarizing the data and comparing it to Postal Service reports. We also interviewed
                                                 agency officials knowledgeable about the data. We determined the data were sufficiently reliable for the purposes of this report.

                                                 To identify BSN accounts where there was customer outreach, we obtained a list of active BSN accounts and the associated
                                                 revenue from the Postal Service and obtained customer outreach information from the CustomerFirst! application. Some BSN
                                                 accounts showed more than one outreach attempt throughout FY 2013, but other accounts did not. To be conservative we
                                                 determined there was a customer outreach in FY 2013 if it was documented in CustomerFirst!.
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                           Print                                 16
Highlights                                       Prior Audit Coverage
                                                                                                                 Monetary Impact
                                                 Report Title            Report Number Final Report Date         (in millions)
                                                 Management Alert
                                                 – Customer Service        NO-MA-13-001 12/17/12                   None
                                                 Feedback
                                                 Report Results: This report identified concerns that some large business mailers
                                                 raised about the mail operations’ feedback system during the FY 2013 fall mailing
                                                 season. We found the system the BSN used was not designed to provide timely,
Table of Contents




                                                 well-informed feedback to customers, nor was it set up to provide maximum mail
                                                 visibility to customers. We recommended the Postal Service give BSN representatives
                                                 training and access to Postal Service data systems such as IMb and Web Mail
                                                 Condition Reporting systems. We also recommended the Postal Service ensure all
                                                 field personnel respond to customer service requests from BSN representatives within
                                                 24 hours. Management agreed with our findings and recommendations and set forth
                                                 plans for corrective actions.

                                                 Customer Complaint        MS-AR-12-007       9/10/12               $8.8
                                                 Resolution Process
                                                 Report Results: This report found the Postal Service was not efficiently and
                                                 effectively resolving customer complaints and did not adequately monitor complaint
                                                 resolution. We recommended the Postal Service develop a mechanism to incorporate
                                                 customer feedback regarding complaint resolution into the system; require current
                                                 policies and procedures to be followed until planned updates are finalized; identify
Findings




                                                 system deficiencies and desired enhancements and work to correct them; develop a
                                                 strategy for reducing repeat complaints; and develop a mechanism to track system
                                                 usage and response wait times and ensuring ongoing actions related to archiving data
                                                 and monitoring outages continue. Management agreed with the recommendations.
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                        Print   17
Highlights          Appendix B:                  Recommendation                  Impact Category                                 Amount
                    Monetary Impact              2                               Revenue Loss         1
                                                                                                                         $381,982,243
                                                 2                               Increased Revenue2                       381,982,243
                                                 Total                                                                   $763,964,486
                                                 1 Amount Postal Service is (or was) entitled to receive but was underpaid or not realized
                                                 because policies, procedures, agreements, requirements, or good business practices were
                                                 lacking or not followed. May be recoverable or unrecoverable.
                                                 2 Increased revenue from existing functions or revenue generated from new sources.
Table of Contents




                                                 We estimate that, because the BSN did not reach out to all accounts during FY 2013, the Postal Service missed revenue
                                                 opportunities of about $382 million. Furthermore, expanding and promoting customer outreach to all BSN accounts could generate
                                                 $382 million in additional revenue for FY 2014.

                                                 To determine these estimates we obtained FY 2013 revenue of $37.6 billion from the CBCIS application for each of the 23,006
                                                 BSN accounts and removed 788 accounts containing zero or negative reported revenue.13 Using CustomerFirst! data, we
                                                 determined which of the 22,218 accounts received at least one proactive or special customer outreach in FY 2013 and which did
                                                 not:

                                                 ■■ 11,592 accounts, with revenue of $31.9 billion, reported a proactive or special customer outreach14 – we calculated that in FY
                                                    2013, on average, these accounts generated revenue of $141,956.15
Findings




                                                 ■■ 10,626 accounts, with revenue of $5.7 billion, did not report a proactive or special customer outreach16 – we calculated that in
                                                    FY 2013, on average, these accounts generated revenue of $107,654.

                                                 Accounts with customer outreach generated, on average, $34,303 more in FY 2013 revenue than those without this outreach. We
                                                 applied the $34,303 to all 11,162 accounts not contacted proactively in FY 2013 (the 536 accounts that reported zero or negative
                                                 revenue and 10,626 accounts that reported revenue). We estimated that if the BSN reached out to all BSN accounts, revenue
                                                 would increase by $382,890,086.
Recommendations




                                                 13	 Accounts could generate a loss due to administrative adjustments. Of the 788 removed accounts, 252 had at least one documented proactive or special contact in
Appendices




                                                     FY 2013 and 536 did not.
                                                 14	 The BSN proactively contacted 11,844 BSN accounts. Of these, 252 reported zero or negative revenue and were removed from the methodology to calculate monetary
                                                     impact. Thus, for monetary impact purposes, the BSN proactively contacted 11,592 BSN accounts.
                                                 15	 To account for large revenue customers we identified the median revenue of the 11,592 accounts, assumed a 50 percent chance that converted accounts would produce
                                                     revenue below the median, and assumed the average revenue would be roughly equivalent to the average of the below median revenue.
                                                 16	 The BSN did not proactively contact 11,162 BSN accounts. Of these, 536 reported zero or negative revenue. These 536 accounts were removed from the methodology
                                                     to calculate monetary impact. Thus, for monetary impact purposes, the BSN did not proactively contact 10,626 BSN accounts.
                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                                                   Print                                           18
Highlights                                       We then calculated the expected costs for conducting quarterly outreach, with each contact taking 20 minutes, or three outreaches
                                                 per hour. We identified that Postal Service BSN staff members are executive and administrative schedule (EAS) employees
                                                 at either the 16 or 19 Level. Then, using national average labor rates, we identified an hourly salary of $61, including benefits,
                                                 for an EAS 1917 employee. We estimate that if the BSN proactively contacted all BSN accounts, revenue would increase by
                                                 $382,890,086 and costs would increase by $907,843, resulting in a revenue increase of $381,982,243.18

                                                 Because the BSN did not initiate contact with all BSN accounts during FY 2013, the Postal Service missed revenue opportunities
                                                 of about $382 million. Furthermore, expanding and promoting customer outreach to all BSN accounts could generate $382 million
                                                 in additional revenue for FY 2014.
Table of Contents
Findings
Recommendations
Appendices




                                                 17	 To be conservative we used the higher salary at the EAS 19 level as opposed to EAS 16.
                                                 18	 Increase in costs could involve additional BSN staff.
                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                              Print                             19
Highlights          Appendix C:                   To obtain insight into customers’ views of the BSN and identify BSN improvement opportunities, we conducted an anonymous
                                                  survey of Postal Service BSN customers. We obtained BSN customers’ primary email addresses from CustomerFirst! and sent
                    Office of Inspector General
                                                  the surveys to 13,495 BSN customers electronically. We received survey responses from 1,126 BSN customers for an 8.3 percent
                    Business Service Network      response rate.
                    Survey
                                                  The survey provided background information regarding the BSN customers:

                                                  ■■ Eighty percent of the survey respondents mail First-Class/Standard letters or flats.
Table of Contents




                                                  ■■ Eighty-one percent of the survey respondents have been BSN customers for more than 3 years.

                                                  ■■ Thirty-seven percent of the survey respondents contact the BSN one or two times monthly.

                                                  ■■ Seventy-nine percent of the survey respondents know their assigned BSN staff.

                                                  ■■ Twenty-six percent of the survey respondents frequently contact non-BSN Postal Service staff to handle or resolve service
                                                     issues.

                                                  ■■ Forty-nine percent of survey respondents are not familiar with, or cannot provide feedback on, the eService/Web system.

                                                  The survey provided feedback on the characteristics of the BSN service request process (see Table 4).
Findings
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                            Print                                20
Highlights                                       Table 4: Selected BSN Survey Reponses

                                                                                                Neither
                                                 Question                     Strongly Somewhat Agree nor      Somewhat Strongly
                                                 (“The BSN”)                  Agree    Agree    Disagree       Disagree Disagree
                                                 Acknowledges
                                                 service requests             56%           22%   7%           2%            2%
                                                 timely
                                                 Accepts service
Table of Contents




                                                                              40%           19%   15%          4%            3%
                                                 requests efficiently
                                                 Provides adequate
                                                 communication
                                                                              52%           18%   9%           6%            4%
                                                 throughout resolution
                                                 process
                                                 Resolves service
                                                                              47%           23%   9%           6%            3%
                                                 requests timely
                                                 Resolves service
                                                                              47%           23%   10%          5%            3%
                                                 requests accurately
                                                 Resolves service
                                                                              46%           24%   12%          4%            3%
                                                 requests efficiently
                                                 Source: OIG BSN customer survey results.
Findings




                                                 The following are examples of comments we received from the survey:

                                                 ■■ “Very responsive and customer friendly.”

                                                 ■■ “Our BSN staff never hesitates to help; he/she is thorough and keeps us updated throughout the resolution process.”

                                                 ■■ “The BSN staff needs more authority to make decisions.”
Recommendations




                                                 ■■ “There is no contact between us unless we initiate it for problem resolution.”

                                                 The survey concluded that larger customers value the Postal Service’s BSN and 53 percent of the respondents are satisfied with
                                                 the BSN’s overall performance.
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                                         Print                                21
Highlights          Appendix D:
                    Management’s Comments
                                                 Appendix D: Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                     Print   22
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Business Service Network
 Report Number MS-AR-14-005
Print
23
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Business Service Network
 Report Number MS-AR-14-005
Print
24
Highlights
Table of Contents
Findings




                                                    Contact us via our Hotline and FOIA forms, follow us on social
                                                 networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                        or abuse. Stay informed.
Recommendations




                                                                       1735 North Lynn Street
                                                                      Arlington, VA 22209-2020
                                                                            (703) 248-2100
Appendices




                    Business Service Network
                    Report Number MS-AR-14-005
                                                                                                                          Print   25
